                        U.S. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416


                                                                 AUDIT REPORT
                                                          Issue Date: February 28, 2002
                                                          Number: 2-07



To:            Robert J. Moffitt
               Associate Administrator, Office of Surety Guarantees


From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit of Safeco/First National Insurance Company

        Attached is the audit report on Safeco/First National Insurance Company issued by
Cotton & Company LLP. The report discusses the following issues: (1) copies of SBA
underwriting form numbers 1624 and 912 were not maintained for one bond, and (2) SBA was
not notified of default in a timely manner for one bond.
        You may release this report to the duly authorized representative of Safeco/First National
Insurance Company. The findings included in this report are based on the auditors’ conclusions.
The findings and recommendations are subject to review, management decision, and corrective
action by your office in accordance with existing Agency procedures for audit follow-up and
resolution. Please provide us your proposed management decision for each recommendation on
the attached forms 1824, Recommended Action Sheet, within 80 days.
       This report may contain proprietary information subject to the provisions of
18 USC 1905. Therefore, you should not release this report to the public or another agency
without permission of the Office of Inspector General. Should you or your staff have any
questions, please contact Robert Hultberg, Business Development Programs Group at
(202) 205-7577.


Attachments
                                  INDEPENDENT ACCOUNTANTS’

                         REPORT ON THE PERFORMANCE AUDIT OF

                      SAFECO/FIRST NATIONAL INSURANCE COMPANY




Performed by:

Cotton & Company LLP
Certified Public Accountants
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
                                            November 2, 2001


U.S. Small Business Administration
Office of Inspector General


BACKGROUND

        The Small Business Investment Act of 1958, as amended, authorized the U.S. Small Business
Administration’s (SBA) Surety Bond Guarantee Program (SBG) to assist small, emerging, and minority
construction contractors. SBA indemnifies surety companies from potential losses by providing a
Government guarantee on bonds issued to such contractors. SBA guarantees up to 90 percent of losses
incurred by sureties for contracts not exceeding $1.25 million (increased to $2 million effective January
25, 2001). SBA’s Office of Surety Guarantees (OSG) administers the SBG program.

OBJECTIVE, SCOPE AND METHODOLOGY

       SBA’s Office of Inspector General (OIG) requested Cotton & Company to conduct a
performance audit of Safeco/First National Insurance Company. The primary objectives were to
determine if Safeco/First National:

1.      Complied with applicable policies and procedures, including SBA’s policies and standards
        generally accepted by the surety industry in issuing SBA-guaranteed bonds.

2.      Submitted claims and expenses to SBA that were allowable, allocable, and reasonable.

3.      Accurately calculated fees due to SBA and remitted them in a timely manner.

        We obtained the universe of Safeco/First National bonds for which SBA had paid claims from
October 1, 1999, through September 30, 2001. This universe contained eight bonds, and we randomly
selected two as sample bonds for review. We also randomly selected two additional bonds originally
approved in Fiscal Years (FYs) 2000 and 2001 for underwriting review only. Thus, our total sample size
was 4 bonds with claims (net of recoveries) totaling $372,376.94. [FOIA Ex. 4].

        We tested sample bonds for compliance with SBA regulations for underwriting and fees by
reviewing underwriting files and Safeco/First National’s accounting records. We tested claims incurred
under sample bonds from October 1, 1999, through September 30, 2001, by reviewing Safeco/First
National’s supporting documentation in the claim files and accounting records. We obtained a list of all
SBA-guaranteed final bonds from October 1, 1999, through September 30, 2001, and identified
contractors with total bonds exceeding $1.25 million ($2 million for bonds issued after January 25, 2001)
for contracts with the same obligee and bond issue dates within several months. We then reviewed
project descriptions to determine if the bonds were for a single project divided into more than one
contract.

       We conducted fieldwork during October and November 2001 at Safeco/First National’s offices
in Redmond, Washington. The audit was conducted in accordance with Government Auditing Standards,
1994 Revision.

AUDIT RESULTS AND RECOMMENDATIONS

        Safeco/First National correctly calculated and remitted all sample bond fees to SBA in a timely
manner. Safeco/First National did not always comply with SBA regulations for underwriting and
servicing bonds and processing claims. Specifically, Safeco/First National did not maintain copies of
SBA underwriting form numbers 1624 and 912 for one of four bonds tested. In addition, it did not notify
SBA of default for one bond in a timely manner, as required by SBA regulations.

        We concluded that management and financial controls were adequate to protect assets and
prevent errors and fraud, except as noted below. We concluded that Safeco/First National did not
comply in all material aspects with SBA regulations for obtaining and maintaining documents to support
proper underwriting of SBA bond guarantees. Also, Safeco/First National did not have procedures in
place to ensure timely notification of default to SBA.

       We conducted an exit conference with Safeco/First National personnel on November 2, 2001.
They generally agreed with factual aspects of the findings.

        Our findings and recommendations are discussed in detail below.

Record Retention

         Safeco/First National did not maintain copies of SBA underwriting forms 1624 and 912 for one
sample bond, as required by SBA regulations. Additionally, the surety was unable to obtain copies of
these documents from their agent. Safeco/First National is required to provide critical underwriting
documents that may be necessary to settle existing claims or defend or enhance any litigation actions
against indemnitors, obligees, or other claimants.

 Contractor                             SBG No.                Bond Date          Missing Documents

 [FOIA Ex. 4]                                                                     SBA Form 1624, 912


        Title 13, CFR, Section 115.21(b), Audits and Investigations, requires a surety to maintain all
documentation submitted by the principal in applying for the bond, for the term of each bond, plus
additional time required to settle any claims for reimbursement from SBA and to attempt salvage or other
recovery, plus an additional 3 years.

       Recommendation: We recommend that the OSG Associate Administrator advise Safeco/First
National to implement and enforce policies and procedures that would ensure that all required SBA
documentation for underwriting and servicing SBA-guaranteed bonds be maintained in accordance with
SBA regulations.

                                                    2
Timely Notification of Default

         Safeco/First National did not notify SBA in a timely manner when the principal for one of the
two bonds reviewed with claims activity defaulted. In the default notification letter that Safeco/First
National sent to SBA, it acknowledged late notification of default. Safeco indicated that the late
notification was the result of a change in personnel handling the file and the new individual was
unfamiliar with the SBA reporting requirement. Safeco/First National emphasized, however, that its
personnel are aware of the SBA reporting requirement.

 Contractor                                SBG No.           Bond Default Date       Date SBA Notified

 [FOIA Ex. 4 and 6]                                          September 19, 1998     November 17, 1998


        Title 13 CFR 115.65 (c)(2) defines other events requiring notification as follows:

            The PSB Surety must notify SBA within 30 calendar days of the name and
            address of any principal against whom legal action on the bond has been
            instituted; whenever an obligee has been declared in default; whenever the
            Surety has established or added to a claim reserve; of the recovery of any
            amounts on the guaranteed bond; and of any decision by the Surety to bond any
            such Principal again.

         Recommendation: We recommend that the OSG Associate Administrator advise Safeco/First
National to continue to enforce its policies and procedures to ensure that SBA receives timely
notification of default in accordance with SBA regulations.

        Safeco/First National’s Response: Safeco/First National stated that they have reviewed the
draft audit report and accept the findings as presented (see appendix).

SBA MANAGEMENT’S RESPONSE

        The Associate Administrator, Office of Surety Guarantees, agreed with the recommendations in
our draft audit report. He stated that his office will implement the recommendations upon completion of
the audit, as appropriate.




                                                    3
                                                                              Attachment


                                          SAMPLE BONDS



                                Safeco/First                               Bond       Bond
Sample      Surety Bond          National                                 Approval   Default
  No.      Guarantee No.         Bond No.               Contractor Name     Date      Date
  1      [FOIA Ex. 4 and 6]

  2

  3

  4


         N/A = Sample bond selected for underwriting review only.
               APPENDIX

SAFECO/FIRST NATIONAL INSURANCE COMPANY
     RESPONSE TO THE DRAFT REPORT
                                                 REPORT DISTRIBUTION

Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Capital Access .................................................1

General Counsel.........................................................................................................2

Office of the Chief Financial Officer
Attention: [FOIA Ex. 6].............................................................................................1




                                                                     2
